Case: 18-3340

Document: 44

Filed: 05/13/2021

Pages: 10

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 18-3340
ZENON GRZEGORCZYK,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
____________________
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:16-cv-08146 — Elaine E. Bucklo, Judge.

____________________
ARGUED NOVEMBER 3, 2020 — DECIDED MAY 13, 2021
____________________
Before KANNE, SCUDDER, and ST. EVE, Circuit Judges.
ST. EVE, Circuit Judge. In the spring of 2012, Zenon Grzegorczyk hired two men to kill his ex-wife and five of her
friends in exchange for $48,000. Fortunately, his plan was destined to fail—the two men he sought out for the task were undercover law enforcement oﬃcers. A grand jury returned a
four-count indictment charging him with three counts of using a facility of interstate commerce with intent that murder
be committed (“murder-for-hire”) in violation of 18 U.S.C.

App. 01a

Appendix A

Case: 18-3340

Document: 44

Filed: 05/13/2021

2

Pages: 10

No. 18-3340

§ 1958(a), and one count of possession of a firearm in furtherance of a crime of violence in violation of 18 U.S.C.
§ 924(c)(1)(A). In July 2014, pursuant to a written plea agreement with the government, Grzegorczyk pled guilty to one
count of murder-for-hire and the firearm charge. The district
court sentenced him to 151 months in prison for the murderfor-hire count and a consecutive 60 months for the firearm
count.
Grzegorczyk now seeks relief from his § 924(c) conviction
pursuant to 28 U.S.C. § 2255. But because he signed an unconditional plea agreement, the district court found his challenge
waived and denied relief. We aﬃrm.
I. Background
A. Factual Background
In April 2012, Grzegorczyk hired two men to kill his exwife and several other individuals whom he deemed responsible for his divorce and the loss of custody of his son. Grzegorczyk was unaware at the time that the two men he hired
were undercover law enforcement oﬃcers.
Grzegorczyk met the men at a fast-food restaurant in Chicago two weeks later to put his plan in motion. After meeting
them in the parking lot of the restaurant, he got into their vehicle and directed them to the residences of his intended victims. Grzegorczyk produced photographs of some of his intended victims and described them in more detail. He also
provided license plate numbers for two of the intended victims’ vehicles. Grzegorczyk told the men that he wanted the
murders completed before June 2012 because he would have
an alibi during that time. He agreed to a $3,000 down payment for the murders.

App. 02a

Case: 18-3340

Document: 44

Filed: 05/13/2021

No. 18-3340

Pages: 10

3

The following week, Grzegorczyk met the men for a final
time. He entered their vehicle again, this time carrying a small
duﬄe bag. Grzegorczyk showed the men photos of additional
individuals he wanted murdered, bringing the total to six.
Grzegorczyk then opened the duﬄe bag and gave the undercover oﬃcers $3,000 in cash as the down payment he had
promised. He also showed them the remaining contents of the
bag: $45,000 in cash that he intended to pay upon completion
of the murders, a 9mm semi-automatic handgun, and two
magazines loaded with 40 live rounds of ammunition. Grzegorczyk left the oﬃcers’ vehicle and returned to his car. He
was then arrested.
B. Procedural Background
On July 17, 2014, Grzegorczyk pled guilty to one count of
murder-for-hire in violation of 18 U.S.C. § 1958(a) and one
count of possession of a firearm in furtherance of a crime of
violence in violation of 18 U.S.C. § 924(c)(1)(A). Pursuant to
the written plea agreement, Grzegorczyk waived, among
other rights, the right to “all appellate issues that might have
been available if he had exercised his right to trial.” Under the
agreement, he could only appeal the validity of his guilty plea
and the sentence imposed. On October 24, 2014, the district
court imposed a within-Guidelines sentence of 151 months for
the murder-for-hire oﬀense, and a consecutive 60 months for
the firearm oﬀense. We aﬃrmed that sentence on appeal.
United States v. Grzegorczyk, 800 F.3d 402 (7th Cir. 2015).
That same year, the Supreme Court decided Johnson v.
United States, invalidating as unconstitutionally vague the
definition of a “violent felony” under the residual clause of
the Armed Career Criminal Act. 576 U.S. 591, 606 (2015); see
18 U.S.C. § 924(e)(2)(B)(ii). The Court later extended the logic

App. 03a

Case: 18-3340

Document: 44

Filed: 05/13/2021

4

Pages: 10

No. 18-3340

of Johnson to the residual clause of § 924(c), invalidating the
definition of “crime of violence” in that statute’s residual
clause as unconstitutionally vague. United States v. Davis, 139
S. Ct. 2319 (2019); see § 924(c)(3)(B). Following Davis, a § 924(c)
conviction based on a crime of violence may rely only on the
statute’s “elements clause.” See § 924(c)(3)(A).
Grzegorczyk petitioned the district court pursuant to 28
U.S.C. § 2255 for relief from his § 924(c) conviction in light of
Johnson and Davis.* The district court denied relief, finding
that Grzegorczyk waived his Johnson challenge when he pled
guilty to a crime of violence. United States v. Grzegorczyk, No.
1-16-cv-08146, 2018 WL 10126077, at *1 (N.D. Ill. Oct. 17, 2018).
The court did not address the merits of his claim. Grzegorczyk
timely appealed.
II. Discussion
On appeal, Grzegorczyk asks us to vacate his § 924(c) conviction and remand for resentencing because, after Johnson
and Davis, a predicate crime of violence must be a felony that
satisfies § 924(c)’s elements clause and, he asserts, murder-forhire is not such a felony. We agree with the district court that
Grzegorczyk waived this challenge to the legal suﬃciency of
the § 924(c) charge by pleading guilty. Thus, we need not decide whether murder-for-hire is a crime of violence under
§ 924(c)(3)(A).

*

Davis had not yet been decided when Grzegorczyk filed his § 2255
petition, but he argued—and we had already held—that Johnson’s reasoning extended to the definition of “crime of violence” in § 924(c)(1)(B).
United States v. Cardena, 842 F.3d 959, 996 (7th Cir. 2016).

App. 04a

Case: 18-3340

Document: 44

Filed: 05/13/2021

No. 18-3340

Pages: 10

5

We denied similar challenges in Davila v. United States, 843
F.3d 729 (7th Cir. 2016), and United States v. Wheeler, 857 F.3d
742 (7th Cir. 2017). In Davila, the petitioner pled guilty to conspiring to commit robbery in violation of the Hobbs Act, 18
U.S.C. § 1951, and to violating § 924(c)’s residual clause by
possessing a firearm in connection with the planned robbery
and in connection with a separate drug traﬃcking crime. Following Johnson, he filed a § 2255 petition seeking relief from
his § 924(c) conviction on the theory that conspiracy to commit robbery could only be considered a crime of violence under § 924(c)’s residual clause. We rejected Davila’s arguments
and held that Davila had relinquished his right to challenge
his § 924(c) conviction as a condition of his plea agreement.
Davila, 843 F.3d at 732. Absent a lack of subject-matter jurisdiction or a constitutional problem with “the very institution
of the criminal charge,” Davila’s guilty plea foreclosed his collateral attack. Id. at 733 (citing United States v. Broce, 488 U.S.
563, 569 (1989)).
We addressed an almost-identical challenge in Wheeler,
where we reiterated that a criminal defendant who pleads
guilty to a § 924(c) charge cannot automatically “reopen the
subject and ask a court of appeals to upset the conviction”
based on Johnson. 857 F.3d at 744. To the contrary, “an unconditional guilty plea waives any contention that an indictment
fails to state an oﬀense.” Id. at 745.
Grzegorczyk pled guilty. In doing so, he admitted to
knowingly using a facility of interstate commerce with intent
that a murder be committed in violation of 18 U.S.C. § 1958(a),
as well as to “possession of a firearm, in furtherance of a crime
of violence,”—murder-for-hire—in violation of § 924(c)(1)(A).
Grzegorczyk’s challenge to his § 924(c) conviction is the exact

App. 05a

Case: 18-3340

Document: 44

Filed: 05/13/2021

6

Pages: 10

No. 18-3340

type of claim we deemed waived by an unconditional guilty
plea in Davila and Wheeler. Indeed, his argument that murderfor-hire cannot be deemed a crime of violence “not only could
have been presented by pretrial motion but also had to be so
presented under Fed. R. Crim. P. 12(b)(3)(B)(v), which provides that failure to state an oﬀense’ is the sort of contention
that must’ be raised before trial.” Id. at 744. Grzegorczyk
acknowledges as much. Undeterred, he asks that we overrule
those cases in light of the Supreme Court’s more recent decision in Class v. United States, 138 S. Ct. 798 (2018).
In Class, the defendant pled guilty to possession of a firearm on U.S. Capitol grounds in violation of 40 U.S.C. § 5104(e)
after he left a firearm locked in his car parked in a lot on the
grounds of the Capitol. He expressly waived several rights by
the terms of the plea agreement, but nonetheless appealed his
conviction on the grounds that the statute violated the Second
Amendment and the Due Process Clause. The Supreme Court
reversed the D.C. Circuit’s decision to dismiss Class’s claims
as waived, stressing that his claims “challenge[d] the Government’s power to criminalize Class’ (admitted) conduct.” Class,
138 S. Ct. at 805. The Court explained that while, in general,
“a valid guilty plea relinquishes any claim that would contradict the admissions necessarily made upon entry of a voluntary plea of guilty,’” id. (quoting Broce, 488 U.S. at 573–74),
Class’s claims were diﬀerent. In challenging the constitutional
validity of his conviction, he did “not in any way deny that he
engaged in the conduct to which he admitted.” Id.
Here, unlike in Class, Grzegorczyk’s claim does contradict
the terms of his plea agreement. See id. at 804. In Grzegorczyk’s written plea agreement, he specifically admitted that
he “knowingly possessed a firearm, namely, a Taurus PT99

App. 06a

Case: 18-3340

Document: 44

Filed: 05/13/2021

No. 18-3340

Pages: 10

7

9mm semi-automatic pistol, in furtherance of a crime of violence”—murder-for-hire—in violation of § 924(c)(1)(A). Although Davis invalidated the residual clause’s definition of a
crime of violence, it left the elements clause intact. Grzegorczyk’s conviction thus remains constitutionally permissible as
long as murder-for-hire falls within the definition of a crime
of violence under the elements clause. Grzegorczyk does not
disagree, but nonetheless asserts that his challenge is constitutional in nature because, he argues, murder-for-hire is not a
crime of violence under the elements clause.
Grzegorczyk misunderstands Class to mean that even
though he pled guilty, he may nonetheless raise a constitutional challenge to his conviction, as long as his claim does not
contradict the terms of the plea agreement (which, as we have
explained, it does) and can be resolved by the facts in the record. We do not find Class so broad. Indeed, we recently rejected this argument in Oliver v. United States, 951 F.3d 841 (7th
Cir. 2020). There, petitioners pled guilty to charges under
§ 924(c) for brandishing a firearm during a crime of violence—theft from a federally licensed firearm dealer in violation of 18 U.S.C. § 922(u). Oliver, 951 F.3d at 843. The petitioners sought relief pursuant to § 2255, arguing that, after Davis,
theft from a federally licensed firearm dealer no longer
counted as a crime of violence suﬃcient to sustain a conviction under § 924(c). Relying on Class, the petitioners asserted
that their claims were nonwaivable because they challenged
the constitutionality of the statute of their convictions. We determined, however, that “Class is not as sweeping as [petitioners] contend,” and dismissed their petitions as waived. Id. at
846.

App. 07a

Case: 18-3340

Document: 44

Filed: 05/13/2021

8

Pages: 10

No. 18-3340

Class, we explained, held only that “a guilty plea, by itself,
does not implicitly waive a defendant’s right to challenge the
constitutionality of his statute of conviction.” Id. But as we
have also explained, an unconditional plea of guilty is suﬃcient to waive a defendant’s right to contest the proper interpretation of the statute of conviction. See Wheeler, 857 F.3d at
744–45. Here, as in Wheeler, Grzegorczyk does not maintain
that § 924(c) is invalid. See id. at 745. He has not challenged the
government’s power to criminalize his admitted conduct. See
Class, 138 S. Ct. at 805. Instead, Grzegorczyk merely asserts
that murder-for-hire is not a “crime of violence” under the elements clause. This is an issue of statutory construction, not a
claim of constitutional immunity from prosecution. See
Wheeler, 857 F.3d at 745. As we have explained before, an unconditional guilty plea implicitly waives such challenges. See
id. (“[A]n unconditional guilty plea waives any contention
that an indictment fails to state an oﬀense.”); see also United
States v. Grayson Enterprises, Inc., 950 F.3d 386, 402 (7th Cir.
2020). Grzegorczyk’s claim is waived.
In a final attempt to avoid waiver, Grzegorczyk challenges
the validity of his plea altogether. A valid guilty plea is one
that a criminal defendant has made voluntarily and intelligently. See Bousley v. United States, 523 U.S. 614, 618 (1998). An
“intelligent” plea requires that the defendant have “real notice of the true nature of the charge against him.” Id. Grzegorczyk argues that because Johnson and Davis changed the scope
of conduct supporting a conviction under § 924(c), he lacked
“real notice” of the charges against him when he entered his
plea agreement in 2014.
Grzegorczyk faces two procedural obstacles in challenging the validity of his plea. First, he did not attack the validity

App. 08a

Case: 18-3340

Document: 44

Filed: 05/13/2021

No. 18-3340

Pages: 10

9

of his plea on direct appeal. Thus, he may only raise the issue
in a § 2255 petition if he “can first demonstrate either cause’
and actual prejudice,’ or that he is actually innocent.’” Bousley, 523 U.S. at 622 (citations omitted). He has failed to do so.
Second, Grzegorczyk did not raise this issue in his § 2255 petition before the district court. He asserts this argument for
the first time on appeal. Construing Grzegorczyk’s pro se petition liberally, as we must, see McNeil v. United States, 508 U.S.
106, 113 (1993), Grzegorczyk did not raise any arguments suggesting he was contesting the validity of his plea in his § 2255
petition. This second default is decisive—the issue is waived.
That is because Grzegorczyk “has made no attempt to demonstrate why his case qualifies as one of these rare civil case[s]
where exceptional circumstances exist’” warranting plain-error review. S.E.C. v. Yang, 795 F.3d 674, 679 (7th Cir. 2015)
(quoting Jackson v. Parker, 627 F.3d 634, 640 (7th Cir. 2010)); see
also Bourgeois v. Watson, 977 F.3d 620, 629–30 (7th Cir. 2020).
Even if we were to consider Grzegorczyk’s claim forfeited
rather than waived and review for plain error, his plea-withdrawal argument still fails. Grzegorczyk cannot prove that
there was any error, let alone one that was “clear and obvious,” aﬀected his substantial rights, and that “seriously affects the fairness, integrity, or public reputation of judicial
proceedings,” as is required to satisfy plain error review. See
United States v. Williams, 946 F.3d 968, 971 (7th Cir. 2020). A
change in the law after a defendant pleads guilty does not
change the voluntariness of the plea at the time it was entered
and does not justify a defendant withdrawing his plea. See
United States v. Mays, 593 F.3d 603, 607 (7th Cir. 2010) (highlighting defendant’s inability to “point to any authority that
holds that the mere possibility of a change in Supreme Court
precedent is a fair and just reason for withdrawal of a guilty

App. 09a

Case: 18-3340

Document: 44

Filed: 05/13/2021

10

Pages: 10

No. 18-3340

plea”). Grzegorczyk has long waived his right to contest the
validity of his plea agreement, and in any event, cannot
demonstrate any error justifying withdrawal of the agreement.
III. Conclusion
Grzegorczyk pled guilty to possession of a firearm in furtherance of a crime of violence, murder-for-hire, in violation
of § 924(c). By unconditionally pleading guilty, he waived his
right to challenge the legal suﬃciency of the § 924(c) charge.
AFFIRMED

App. 10a

Case: 1:16-cv-08146 Document #: 25 Filed: 10/17/18 Page 1 of 4 PageID #:97

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
United States of America

)
)
)
) No. 16 CV 8146
) (No. 12 CR 320)
)
)
)
)
)
)

v.

Zenon Grzegorczyk,
Defendant.

Memorandum Opinion and Order
Zenon Grzegorczyk was charged with three counts of using a
facility of interstate commerce with intent that a murder be
committed, in violation of 18 U.S.C. § 1958(a), and one count of
possessing a firearm in furtherance of a crime of violence, in
violation of 18 U.S.C. § 924(c)(1)(A). Pursuant to a written
agreement, petitioner pled guilty to one of the § 1958(a) counts
(Count

Three)

government

and

agreed

the

§ 924(c)

to

dismiss

count
the

(Count

remaining

Four),

and

charges

the

after

sentencing. In his plea, petitioner admitted that he “knowingly
possessed a firearm...in furtherance of a crime of violence” as
charged in Count Three. Petitioner expressly waived his right to
appeal his conviction, agreeing that he “may only appeal the
validity of this plea of guilty and the sentence imposed.” I
imposed a sentence of 151 months of confinement on the first

App. 11a

Appendix B

Case: 1:16-cv-08146 Document #: 25 Filed: 10/17/18 Page 2 of 4 PageID #:97

offense and a consecutive 60 months on the second. Petitioner
appealed his sentence and the Seventh Circuit affirmed. U.S. v.
Grzegorczyk,

800

F.

3d

402

(7th

Cir.

2015).

Before

me

is

petitioner’s 28 U.S.C. § 2255 motion to vacate his sentence. The
motion is denied for the reasons explained below.
Petitioner argues that his § 924(c)(1) conviction is invalid
because it depends on the “residual clause” of § 924(c)(3)(B),
which is constitutionally indistinguishable from the residual
clause the Supreme Court held unconstitutional in Johnson v. United
States, 135 S. Ct. 2551 (2015) (residual clause of sentencing
enhancements in the Armed Career Criminals Act void for vagueness).
Indeed, the Seventh Circuit so held in United States v. Cardena,
842 F.3d 959, 995–96 (7th Cir. 2016) (Johnson invalidates residual
clause

of

§ 924(c)(3)(B)).

Accordingly,

had

petitioner

been

convicted after a jury trial, he might have had a leg to stand on
under § 2255. But that relief is unavailable to him because he
pled guilty to a crime of violence, thereby waiving his Johnson
challenge.1 United States v. Wheeler, 857 F.3d 742, 744 (7th Cir.
2017) (defendant who pled guilty to attempted Hobbs Act robbery
and a § 924(c)(1) offense waived argument that indictment did not

Although I stayed briefing on the petition at the government’s
request pending the Supreme Court’s decision in Sessions v. Dimaya,
138 S. Ct. 1204 (2018), which held the identically worded residual
clause of 18 U.S.C. § 16(b) unconstitutionally vague, Dimaya does
not disturb the ground on which I conclude that petitioner is
ineligible for relief.
1

2
App. 12a

Case: 1:16-cv-08146 Document #: 25 Filed: 10/17/18 Page 3 of 4 PageID #:97

charge a “crime of violence,” regardless of the fact that Cardena
post-dated his guilty plea); Davila v. United States, 843 F.3d
729, 731-32 (7th Cir. 2016) (explaining that Brady v. United
States, 397 U.S. 742 (1970), and United States v. Broce, 488 U.S.
563 (1989), precluded defendant who pled guilty to Hobbs Act
conspiracy and a § 924 (c)(1) offense from relying on Johnson and
Cardena to upset his conviction). Citing the Seventh Circuit’s
unequivocal holdings of these cases—which it has reiterated in a
subsequent, non-precedential order, United States v. Starwalt, No
16-3505, 701 F. App’x 508 (7th Cir. Nov. 14, 2017)—several lower
courts have denied Johnson relief to defendants seeking to vacate
their

sentences

after

pleading

guilty

to

§ 924(c)(1)

charges

predicated on crimes of violence. Mediate v. United States, 2018
WL 1366689, at *6 (S.D. Ind. Mar. 16, 2018); United States v.
Pullia, Nos. 16 C 6450, 16 C 6455, 16 C 7631, 2017 WL 5171218, at
*5-*6 (N.D. Ill. Nov. 8, 2017); Pena v. United States, No. 16 C
2239, 2017 WL 2588074, at *4 (C.D. Ill. Jun. 14, 2017); Ward v.
United States, 3:16-cv-4640RLM, 2017 WL 784238, at *4 (N.D. Ind.
Mar. 1, 2017); but see United States v. Adams, 2018 WL 3141829, at
*2 (N.D. Ill. Jun. 27, 2018) (vacating sentences of defendants who
pled guilty to Hobbs Act conspiracy and § 924(c)(1) offenses under
Johnson and Cardena, but without examining Wheeler or Davila, which
the government did not raise).

3
App. 13a

Case: 1:16-cv-08146 Document #: 25 Filed: 10/17/18 Page 4 of 4 PageID #:97

Because Davila and Wheeler are dispositive of petitioner’s
motion, I need not address the remaining arguments the parties
raise.
ENTER ORDER:

Elaine E. Bucklo
United States District Judge

Dated: October 17, 2018

4
App. 14a

Case: 14-3460

Document: 22

Filed: 09/01/2015

Pages: 9

In the

United States Court of Appeals
For the Seventh Circuit
No. 14-3460
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ZENON GRZEGORCZYK,
Defendant-Appellant.
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 12 CR 320 — Elaine E. Bucklo, Judge.

ARGUED MAY 26, 2015 — DECIDED SEPTEMBER 1, 2015

Before BAUER, KANNE, and WILLIAMS, Circuit Judges.
BAUER, Circuit Judge. Defendant-appellant, Zenon Grzegorczyk, pleaded guilty to knowingly using a facility of
interstate commerce with intent that a murder be committed,
in violation of 18 U.S.C. § 1958(a), and to knowingly possessing
a firearm in furtherance of a crime of violence, in violation of
18 U.S.C. § 924(a)(1)(A). The district court sentenced Grzegorczyk to a within-Guidelines sentence of 151 months, plus 60
months’ imprisonment to run consecutively, for a total

App. 15a

Appendix C

Case: 14-3460

Document: 22

Filed: 09/01/2015

2

Pages: 9

No. 14-3460

sentence of 211 months’ imprisonment. Grzegorczyk appeals
his sentence, arguing that the district court (1) erred in refusing
to apply § 2X1.1 of the United States Sentencing Commission
Guidelines Manual to reduce his Guidelines calculation by 3
levels; (2) erred in failing to consider his mental health at the
time of the offense; and (3) imposed a substantially unreasonable sentence. We affirm.
I. BACKGROUND
In April 2012, Grzegorczyk met with two undercover law
enforcement officers posing as gun suppliers in order to
procure firearms to ship to Poland. At some point during the
conversation, Grzegorczyk asked the men to step outside,
where he proceeded to tell them that he wanted to have killed
certain individuals who he held responsible for his divorce and
the loss of custody of his son. He explained that he would kill
them himself, but that he needed an alibi. He also told the
agents that another individual had offered to do the job for
$2,000 per person, but that he didn’t trust that person. The
agents agreed to kill two individuals in exchange for $5,000 per
person.
At the next meeting between the agents and Grzegorczyk,
which took place a couple of weeks later, Grzegorczyk got into
the agents’ car and directed them toward the residences of his
ex-wife and of two of his intended victims. He also showed the
agents photographs of at least three individuals who he
wanted killed, provided the agents with descriptions and
license plate numbers of two of the intended victims’ vehicles,
and told the agents that he wanted the murders to be completed before a wedding in early June 2012, which the intended

App. 16a

Case: 14-3460

Document: 22

No. 14-3460

Filed: 09/01/2015

Pages: 9

3

victims were expected to attend. He then confirmed the $5,000
price per person and noted that, since there could be no
witnesses, the number of victims could change depending on
who was present when the agents arrived to kill the victims.
On May 2, 2012, Grzegorczyk met the agents and presented
them with several photographs of additional victims who he
wanted murdered, explaining that he wanted a total of six
people killed. He told the agents that he wanted them to
complete the murders carefully and reiterated the need for no
witnesses. He then opened the duffle bag that he had carried
with him, which contained $45,000 in cash, a 9mm semiautomatic firearm, and two magazines loaded with forty live
rounds of ammunition. He showed the agents the contents of
the bag and gave them $3,000 as a down payment for the
murders. He also informed the agents that he intended to leave
for Poland on June 8, 2012, and that the trip would provide his
alibi for the murders.
On May 30, 2012, a federal grand jury returned a four-count
indictment against Grzegorczyk, charging him with three
counts of knowingly using a facility of interstate commerce
with intent that a murder be committed, in violation of 18
U.S.C. § 1958(a) (Count 1 through Count 3), and one count of
possession of a firearm in furtherance of a crime of violence, in
violation of 18 U.S.C. § 924(c)(1)(A) (Count 4). Pursuant to a
plea agreement with the government, Grzegorczyk pleaded
guilty to Count 3 and Count 4.
At sentencing, Grzegorczyk’s adjusted criminal offense
level of 34, combined with his criminal history score of 0,
yielded an advisory Guidelines range of 151 to 188 months’

App. 17a

Case: 14-3460

Document: 22

Filed: 09/01/2015

4

Pages: 9

No. 14-3460

imprisonment. Additionally, Grzegorczyk was subject to a 60month consecutive sentence for the firearms offense in Count 4,
bringing his total advisory sentencing range to 211 to 248
months. The government advocated for a sentence toward the
middle to high end of the Guidelines range, based on the
seriousness of the offense and the need to protect the community. Grzegorczyk urged the district court to impose a sentence
of no more than 120 months’ imprisonment and five years’
supervised release. The district court sentenced Grzegorczyk
to 151 months’ imprisonment on Count 3, followed by a
consecutive 60-month term of imprisonment on Count 4, and
imposed a three-year term of supervised release on each count,
to be served concurrently. This appeal followed.
II. ANALYSIS
We review the district court’s interpretation of the Guidelines de novo, and review for clear error the factual determinations underlying the district court’s application of the Guidelines. United States v. Harper, 766 F.3d 741, 744 (7th Cir. 2014).
We review de novo procedural errors that occur when a
sentencing court “fails to calculate or improperly calculates the
[defendant’s] Guidelines range, treats the Guidelines as
mandatory, fails to consider the § 3553(a) factors, selects a
sentence based on clearly erroneous facts, or fails to adequately
explain the basis for the chosen sentence.” United States v.
Castro-Alvarado, 755 F.3d 472, 475 (7th Cir. 2014). Finally, we
review the substantive reasonableness of a sentence for an
abuse of discretion. United States v. Conley, 777 F.3d 910, 914
(7th Cir. 2015). Sentences that fall within a properly calculated
Guidelines range are presumptively reasonable. Id.

App. 18a

Case: 14-3460

Document: 22

Filed: 09/01/2015

No. 14-3460

Pages: 9

5

A. Application of U.S.S.G. § 2X1.1
Grzegorczyk’s first argument is that the district court erred
in refusing to apply § 2X1.1 of the United States Sentencing
Commission Guidelines Manual (“U.S.S.G.”), which, if applicable, would have reduced his base offense level by three. Section
2X1.1, titled “Attempt, Solicitation, or Conspiracy (Not
Covered by a Specific Offense Guideline),” provides for a
three-level decrease for solicitation “unless the person solicited
to commit or aid the substantive offense completed all the acts
he believed necessary for successful completion of the substantive offense … .” U.S.S.G. § 2X1.1(b)(3)(A). It also states that
“when an attempt, solicitation, or conspiracy is expressly
covered by another offense guideline section,” the sentencing
court is to apply that Guideline section and not § 2X1.1. Id. at
(c)(1). The district court held that § 2X1.1 is inapplicable to
Grzegorczyk because his offense conduct is covered by another
offense Guideline. We agree.
Grzegorczyk’s offense conduct is specifically covered by
§ 2A1.5 (“Conspiracy or Solicitation to Commit Murder”),
which, incidentally, is listed in the Application Notes to § 2X1.1
among the specific offense Guidelines that expressly cover
solicitation. See U.S.S.G. § 2X1.1 cmt. n.1. Grzegorczyk does not
appeal the district court’s determination that § 2A1.5 applies to
the underlying conduct of his offense, nor does he appeal the
court’s use of this section to calculate his base-offense level. He
agrees that his offense conduct is covered by § 2A1.5 but
argues that, since the offense was never carried through to
completion, he is nevertheless entitled to a three-level reduction under § 2X1.1(b)(3)(A). In support of his argument,
Grzegorczyk points to the commentary to § 2X1.1, which

App. 19a

Case: 14-3460

Document: 22

Filed: 09/01/2015

6

Pages: 9

No. 14-3460

notes that a reduction of three levels is appropriate “where an
arrest occurs well before the defendant or any other coconspirator has completed the acts necessary for the substantive offense.” U.S.S.G. § 2X1.1 cmt. background.
Grzegorczyk’s argument fails for two reasons. First, it
ignores the plain language of § 2X1.1(c)(1), which instructs the
court not to apply § 2X1.1 when a solicitation is expressly
covered by another offense Guidelines section. Second, it fails
to consider the fact that § 2A1.5 already accounts for instances
where the acts necessary for the completion of the crime
solicited have not occurred. This is evidenced by specific cross
reference instructions directing the court to apply § 2A2.1 if the
offense resulted in an attempted murder or assault with intent
to commit murder (which would yield a base-offense level
of 38) or § 2A1.1 if the offense resulted in the death of the
victim (which would yield a base-offense level of 43). U.S.S.G.
§ 2A1.5(c). Accordingly, Grzegorczyk’s claim as to the applicability of § 2X1.1(b)(3)(A) to his sentence fails.
B. Grzegorczyk’s Arguments in Mitigation
Grzegorczyk’s second argument is that his sentence was
procedurally unreasonable because the district court failed to
properly weigh the § 3553(a) factors in fashioning his sentence.
Specifically, Grzegorczyk contends that the district court did
not carefully or completely consider the evidence of his mental
health status at the time of the offense and the impact of the
subsequent trauma that he suffered at the Metropolitan
Correctional Center.
At sentencing, the district court is obligated to consider the
§ 3553(a) factors and provide a record for us to review, but it is

App. 20a

Case: 14-3460

Document: 22

No. 14-3460

Filed: 09/01/2015

Pages: 9

7

not required to comprehensively discuss each of the factors.
United States v. Moreno-Padilla, 602 F.3d 802, 811 (7th Cir. 2010).
The court is also not required to discuss each factor in checklist
fashion, United States v. Dean, 414 F.3d 725, 729 (7th Cir. 2005),
nor extensively address non-principal arguments or “stock
arguments that sentencing courts see routinely,” United States
v. Tahzib, 513 F.3d 692, 695 (7th Cir. 2008). See also United States
v. Shannon, 518 F.3d 494, 496 (7th Cir. 2008) (“The court need
not address every § 3553(a) factor in checklist fashion, explicitly articulating its conclusions regarding each one. Instead the
court may simply give an adequate statement of reasons,
consistent with § 3553(a), for thinking the sentence it selects is
appropriate” (internal citations omitted)).
In this case, the sentencing transcript shows that the district
court gave adequate consideration to Grzegorczyk’s principal
argument in mitigation, in accordance with § 3553(a). The
principal argument advanced by Grzegorczyk at sentencing
was that his conduct was not emblematic of how he “normally
behaves.” In support of this point, Grzegorczyk argued that his
actions were brought on by the emotional trauma of his recent
divorce, his history of alcoholism and a personality disorder,
which was diagnosed by the doctor who evaluated his competency, Dr. Ostrov.1 Contrary to Grzegorczyk’s contention,
however, the district court clearly considered this information
in fashioning Grzegorczyk’s sentence. After noting several
mitigating factors, including the fact that Grzegorczyk had no

1

Although Dr. Ostrov determined that Grzegorczyk was competent,
Grzegorczyk argued that his personality disorder made him act out of
character and behave irrationally.

App. 21a

Case: 14-3460

Document: 22

8

Filed: 09/01/2015

Pages: 9

No. 14-3460

criminal history and had received letters of support from many
people, the court acknowledged his history of alcoholism and
personality disorder. The court noted that they were both
factors that it would weigh. However, the court found that
Grzegorczyk was very serious about the murders he solicited
the undercover agents to commit. Furthermore, Grzegorczyk
committed the offense at age fifty-one—an age where, in the
district court’s opinion, individuals have more control over
their emotions and are mature enough to think about the longterm consequences of their actions. Thus, even considering
Grzegorczyk’s lack of criminal history and the low rate of
recidivism among his age group, the court found that his
particular characteristics cut against his argument that his
behavior would never manifest itself again. From the record
before us, therefore, it is apparent that the court considered
Grzegorczyk’s arguments in mitigation, in light of the other
§ 3553(a) factors, and determined that any mitigating aspects
of the defendant’s mental health or conduct were outweighed
by the seriousness of the offense and risk to the public.
C. Reasonableness of Grzegorczyk’s Sentence
Grzegorczyk’s final argument on appeal is that the district
court imposed a substantively unreasonable sentence of 211
months’ imprisonment in light of his age, risk of recidivism,
and need for rehabilitation. Since Grzegorczyk received a
within-Guidelines sentence, which carries a presumption of
reasonableness, he must overcome a hefty burden to prove its
unreasonableness. See Castro-Alvarado, 755 F.3d at 477; United
States v. Dachman, 743 F.3d 254, 263 (7th Cir. 2014). To rebut
this presumption he must demonstrate that his sentence is
unreasonable when measured against the factors set forth in

App. 22a

Case: 14-3460

Document: 22

No. 14-3460

Filed: 09/01/2015

Pages: 9

9

§ 3553(a). United States v. Nitch, 477 F.3d 933, 937 (7th Cir.
2007); United States v. Mykytiuk, 415 F.3d 606, 608 (7th Cir.
2005). Because he has not offered a valid basis for rebutting the
presumption of reasonableness that the within-Guidelines
sentence enjoys, his final argument fails.
AFFIRMED

App. 23a

